                Office of Forensic Auditing, Evaluation and Analysis
                Office of Inspector General
                U.S. General Services Administration




Evaluation of GSA Guidance and Purchasing
For Federal Child Care Centers

Report Number: JE15-002
October 23, 2014
                                   REPORT ABSTRACT

OBJECTIVE                       Evaluation of GSA Guidance and Purchasing For
Our objectives were to
evaluate: (1) GSA issued
                                              Federal Child Care Centers
guidance for the
development of federal child                     Report Number: JE15-002
care centers; and (2) GSA                             October 23, 2014
Office of Child Care
government purchase card     What We Found
procurement activity.
                               1. Improper purchases, totaling $120,608, during fiscal year 2013
                                  including toys and curriculum materials, such as puzzles, books,
                                  tricycles, stuffed animals, and blocks.
                               2. GSA guidance on purchasing authority for federal child care
                                  centers is inconsistent and ambiguous.

                             What We Recommend
                                 1. Establish a well-defined description of authorized “services” and
                                    “classroom furnishings” that may be procured by GSA for the
                                    development of child care centers.
                                 2. Ensure the well-defined description of authorized “services” and
                                    “classroom furnishings” is included in the Special Conditions to
                                    the Licensing Agreement for all child care providers in GSA-
                                    managed space; as well as in any other GSA operating, design,
                                    development, and website content guidance.
                                 3. Provide updated training to Child Care Division purchase card
                                    holders on the procurement of authorized services and classroom
                                    furnishings.
                                 4. Require the Child Care Division to enforce its inventory
                                    policies, and also conduct regular and comprehensive physical
Office of Forensic                  inventory inspections of all child care centers to ensure
                                    inventories of GSA furnished items are accurate.
Auditing, Evaluation and
Analysis (JE)                Management Comments
1800 F Street, NW,
Suite 5013                   The Public Building Services (PBS) Commissioner concurred with
Washington, DC 20405         our recommendations and identified corrective actions.
202-273-4989                 Management’s comments can be found in their entirety in
                             Appendix B.




                                                   i
JE15-002
                      U.S. General Services Administration
                      Office of Inspector General




DATE:          October 23, 2014

TO:            NORMAN DONG
               Commissioner
               Public Building Services (P)


FROM:          PATRICIA D. SHEEHAN
               Director
               Office of Forensic Auditing, Evaluation and Analysis (JE)

SUBJECT:       Evaluation of GSA Guidance and Purchasing For Federal Child Care Centers
               Report Number: JE15-002

This report presents the results of our evaluation of the GSA Child Care Program Guidance and
Purchasing for Federal Child Care Centers. Our findings and recommendations are summarized
in the Report Abstract. Instructions regarding the resolution process can be found in the email
that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of the
evaluation team at the following:

 Patricia Sheehan   Director                  Patricia.Sheehan@gsaig.gov 202-273-4989
 Natalie Granito    Auditor                   Natalie.Granito@gsaig.gov  202-273-7267
 Rashawna           Management Analyst        Rashawna.Chapman@gsaig.gov 202-273-7252
 Chapman

On behalf of the evaluation team, I would like to thank you and your staff for your assistance
during this review.




                                                      ii
JE15-002
EXECUTIVE SUMMARY

As the federal government’s landlord, GSA provides space and services for child care centers in
federal buildings. Under the authority of the Trible Amendment, codified at 40 U.S.C. § 590, the
GSA Public Buildings Service (PBS), Office of Child Care, manages the Child Care Program by
providing guidance, assistance, and oversight to federal agencies for the development of child
care centers. At the time of this review, there were 106 child care centers operating in GSA-
managed space in 31 states and the District of Columbia, with a national enrollment of over
8,000 children. 1 The centers are independently operated, and the services GSA is authorized to
provide, free of charge to the child care centers, include: lighting, heating, cooling, electricity,
office furniture, office machines and equipment, classroom furnishings and equipment, kitchen
appliances, playground equipment, telephone service, and security systems.

In the course of a routine review of GSA government purchase card transactional data, the OIG
found that certain purchases do not qualify as authorized services for federal child care centers.
Accordingly, the Office of Forensic Auditing, Evaluation, and Analysis conducted a further
evaluation of GSA government purchase card procurement activity for child care centers
operating in GSA-managed space.

The OIG reviewed the Office of Child Care government purchase card transactions, and
supporting documentation, for the period October 2012 through September 2013, covering all 11
GSA regions. We identified improper purchases, totaling $120,608, during this 12 month period
including “toys” and “curriculum materials,” such as puzzles, books, tricycles, stuffed animals,
and blocks.

Additionally, our office found the GSA guidance on purchasing authority for federal child care
centers to be inconsistent and ambiguous. GSA’s lack of definitive guidance leads to conflicting
interpretations of what is authorized, resulting in improper purchases.

This report discusses the results of the OIG’s evaluation of GSA’s guidance and purchasing for
federal child care centers, and recommends that PBS: (1) establish a well-defined description of
authorized “services” and “classroom furnishings” that may be procured by the government for
the development of child care centers; (2) ensure the well-defined description of authorized
“services” and “classroom furnishings” is included in the Special Conditions to the Licensing
Agreement for all child care providers in GSA managed space; as well as in any other GSA
operating, design, development, and website content; (3) provide updated training to Child Care
Division purchase card holders on the procurement of authorized services and classroom
furnishings; and (4) require the Child Care Division to enforce its inventory policies, and also to
conduct regular and comprehensive physical inventory inspections of all child care centers to
ensure inventories of GSA furnished items are accurate.




1
    GSA Child Care Overview. Retrieved from: http://www.gsa.gov/portal/category/21987.


                                                                     1
JE15-002
BACKGROUND

The OIG Office of Forensic Auditing, Evaluation, and Analysis evaluates GSA government
purchase card transactions on an ongoing basis in order to monitor and assess compliance with
GSA Order CFO 4200.1A, Use of the GSA Purchase Card, August 17, 2009. Through our
reviews of transactions by GSA cardholders, we identified questionable child care-related
purchases by the PBS Child Care Division, Office of Tenant Services, Facilities Management
and Services Program. 2

GSA does not directly operate or contract for services at the child care centers, but grants
authority for the day-to-day management of a child care center in federally managed space to an
employee group, such as a board of directors, or to a private child care provider. 3 These entities
are provided GSA-controlled space to operate child care centers under a GSA Revocable License
for Non-Federal Use of Real Property that includes special conditions. 4 The 2010 PBS Property
Managers Child Care Desk Guide (Property Managers Desk Guide) “provides policy and
guidance on operating and maintaining a child care center, as well as outlining the unique
requirements of the GSA Child Care Program.” 5

The majority of federally provided child care center equipment is purchased through the GSA
Child Care Division by child care program specialists assigned to the regions. The Child Care
Division has an annual budget of approximately $1.6 million, and oversees 106 independently
operated child care centers located in GSA-managed space. Within the National Capital Region
(NCR), GSA oversees 29 child care centers.

ANALYSIS

Legislation
The Trible Amendment, 6 now codified at 40 U.S.C. § 590, authorizes federal agencies to expend
appropriated funds “for the development of child care centers to provide economical and
effective child care for federal workers.” 7 Federal agencies may allot available space to child
care centers when at least fifty percent of the children cared for have one parent or guardian



2
    GSA references “Office of Child Care” and “Child Care Division” interchangeably.
3
    PBS Property Managers Child Care Desk Guide (2010) at p. i (PDF p. 7/174).
4
    Id.
5
    Id.
6
 The reference is to Senator Trible, who introduced the authorizing legislation. See “GSA Authority to Lease New Space for
Child Care Facilities,” 70 Comp. Gen. 210 (1991) at 2.
7
    40 U.S.C. §590(a).




                                                                       2
JE15-002
employed by the federal government, and the provider gives priority to federal employees for
available child care. 8

Agencies also may provide the space “without charge for rent or services.” 9 Congress defined
“services” as follows:

             For purposes of this subsection, the term “service” includes the providing of lighting,
             heating, cooling, electricity, office furniture, office machines and equipment,
             classroom furnishings and equipment, kitchen appliances, playground equipment,
             telephone service (including installation of lines and equipment and other expenses
             associated with telephone services), and security systems (including installation and
             other expenses associated with security systems), including replacement equipment,
             as needed. 10

Congress did not explicitly limit the term “services” but instead instructed GSA to provide
guidance. Of these, the categories “classroom furnishings and equipment” and “playground
equipment” are the most ambiguous and necessitate clear guidance.

GSA Licensing Agreements
Congress instructed GSA to provide agencies with guidance on child care centers by using
licensing agreements. 11 We examined GSA’s model licensing agreement for the Child Care
Program, which consists of a Revocable License for Non-Federal Use of Real Property (GSA
Form 1582) and the Special Conditions to the Licensing Agreement. 12 The Special Conditions to
the Licensing Agreement states: “The Child Care Provider will provide all supplies
(consumables and manipulatives) such as toys, food and curriculum materials which remain the
property of the Provider.” 13

The GSA PBS Office of Child Care publication, Operating on Federal Property Directors Desk
Guide 2004, states: “Each provider and board is free to negotiate any contract they want as long
as they do not change or lessen the basic requirements in the GSA license.” 14




8
    Id. at §590(b)(2)(C).
9
    Id. at §590(c)(2) (emphasis added).
10
     Id. at §590(c)(1).
11
     Id. at §590(a).
12
   Reference to both is found in the Property Managers Desk Guide which GSA published “to assist facility personnel with the
day-to-day and long-term management of child care centers within GSA-controlled space.” at p. i (PDF p. 7/174)). Retrieved
from: http://gsa.gov/graphics/pbs/property_managers_guide.pdf.
13
     Special Conditions to the Licensing Agreement (8/8/2011), Terms and Conditions of Occupancy § (4)(P).
14
    Retrieved from: < http://www.gsa.gov/graphics/pbs/directorsdeskguidesmall.pdf> at p.4/104.


                                                                       3
JE15-002
Other GSA Guidance
GSA also provides other guidance, outside of the licensing agreements, for Child Care Program
purchases. Two sources from the GSA Child Care web page follow the model licensing
agreement. The first, Setting Up a Child Care Center Checklist: 15 Important Steps, provides:
“GSA is responsible for the initial purchase of equipment and subsequent repair and replacement
of equipment. GSA does not purchase toys, curriculum materials or consumable goods; this is
the responsibility of the provider.” 15 Identical language is found in the second source, Starting a
Child Development Center. 16 In addition, the above-mentioned Operating on Federal Property
Directors Desk Guide 2004, states: “All of the large fixed equipment in the center belongs to the
government. GSA buys large and durable equipment, we do not buy toys.” 17

However, the GSA Federal Child Care Center Design Guide, PBS-140, July 2003 (Design
Guide) contains conflicting criteria for planning and designing child care centers in GSA-owned
or controlled spaces. The following items are included in “a list of the furnishings and equipment
that may be provided by the Federal Government as part of the baseline provisions:” 18

       •    Toddler water play table;
       •    Cardboard blocks;
       •    Wooden doll bed;
       •    Low easel;
       •    Wooden puzzle case with wood puzzles;
       •    Doll house with furniture;
       •    Set wooden unit blocks with storage;
       •    Wood train set with tracks;
       •    Wooden cash register;
       •    Balance boards & blocks;
       •    Wagons;
       •    Large set permablocks; and
       •    Tricycles.

All of these items might be considered toys and/or curriculum materials. This Design Guide list
appears to be inconsistent with GSA’s model licensing agreement.

Our office spoke with the GSA PBS Child Care Division for additional guidance on policies and
practices. The Child Care Division reported that child care providers have the responsibility to


15
 Starting a Child Development Center. Setting Up a Child Care Center Checklist: 15 Important Steps, Step 7: Equip Center.
Retrieved from: < http://gsa.gov/portal/content/103652>.
16
 Starting a Child Development Center, p. 7/57, Equip Center. Document: <http://www.gsa.gov/graphics/pbs/startupguide.pdf>.
Retrieved from: <http://gsa.gov/portal/content/103652 >.
17
     Operating on Federal Property Directors Desk Guide 2004 at p. 39/104.
18
  GSA Federal Child Care Center Design Guide at p. 11/154 § 1-1, and pp. 87-96/154 § 8-1 to 8-10.
<.http://gsa.gov/graphics/pbs/designguidesmall.pdf >. Retrieved from: <http://gsa.gov/portal/category/26323>.


                                                                      4
JE15-002
procure their own staff, food, bleach, paper products, crayons, paint, and other consumables.
However, if a durable asset is expected to last more than a year, the Child Care Division
considers it equipment, and therefore GSA is permitted to purchase it for the center. Examples
given included tables, chairs, and furniture, but also items that could be identified as toys or
curriculum materials, such as: tricycles, wooden blocks, some books, and reference guides.

In other words, the one-year rule of thumb informal guidance indicates that non-durable assets
constitute supplies, and therefore are not authorized for federal purchase, and durable assets
constitute allowable purchases, regardless of whether they may be characterized as toys or
curriculum materials. We did not find the one-year rule in any written guidance.

FINDINGS

Improper Purchases
Through a review of the fiscal year 2013 Child Care Division government purchase card
transaction logs and invoices for all 11 GSA regions, we identified improper purchases of “toys”
and “curriculum materials,” such as: stuffed animals, doll houses, blocks, doll high chairs, books,
a radio/compact disc player, compact discs, puppets, puzzles, instruments, tricycles, push toys,
and dress-up clothes.

GSA is charged with providing guidance, assistance, and oversight to federal agencies in the
development of federal child care centers through its licensing agreement. The model licensing
agreement states, “[t]he child care provider will provide all supplies (consumables and
manipulatives) such as toys, food, and curriculum materials which remain the property of the
Provider.” Based solely on that guidance, we found that $120,608 of the Child Care Division
government purchase card transactions, from October 2012 through September 2013, were
improper.

Inconsistent Purchasing
We observed that purchasing by GSA child care program specialists was inconsistent. We visited
seven NCR child care centers to review the types of items GSA purchased for the centers. Four
of the providers identified toys as GSA furnished items. At these centers, the directors pointed
out GSA-purchased tricycles, dress-up clothes, dolls, doll houses, blocks, riding toys, and soft
toys as we toured the child care facilities. Two other centers specifically excluded toys as GSA-
purchased items. 19

Differing Licensing Agreements
We found differences in child care center licensing agreement terms. We requested the licensing
agreements for the 29 NCR child care centers overseen by GSA, and found that 23 licensing
agreements did not require the provider to maintain an inventory list of GSA provided items,
four did, and two licensing agreements were not able to be produced for our review. Licensing
agreements for four of the seven NCR child care centers we visited included the following

19
     One center director, who was newly hired and lacked GSA guidance, was not asked.




                                                                      5
JE15-002
requirement, “An inventory list of GSA provided items will be maintained by the provider and
submitted to the GSA Child Care Office upon request. The provider will notify GSA when
government purchased equipment becomes old or damaged to initiate the GSA excess
process.” 20 During our site visits, none of these four center directors could provide a complete
inventory of GSA provided property.

One child care center we visited, which has been operating in GSA-controlled space for almost
15 years, has a licensing agreement that does not require an inventory. In the beginning of
calendar year 2014 the center director was verbally informed that inventory tracking of GSA
provided equipment must be initiated. This verbal directive was not supported by a written
change to the center’s licensing agreement.

Inadequate GSA-Conducted Inventories
We inspected inventory lists at seven NCR child care centers, which were compiled by GSA
NCR child care program specialists. We found inconsistencies at six of the seven child care
centers. The GSA NCR child care program specialist reportedly visited all NCR centers, within
the three months prior to our site visits, to conduct an inventory of GSA furnished items. These
GSA prepared inventories were given to the center directors, and also provided to the OIG
during the review. With the exception of one center, we found the GSA prepared inventory lists
to be sparse and inaccurate. We also found many of the GSA purchased items in six of the
centers had no identifying labels, or had inventory barcodes that were worn off, making it
impossible to scan and accurately inventory the items.

CONCLUSION

GSA purchasing guidance for child care center classroom furnishings and services in GSA-
managed space is inconsistent and ambiguous. The Trible Amendment directs that GSA provide
guidance through the licensing agreements, and GSA’s model licensing agreement requires the
providers, not the federal government, to furnish all supplies such as toys, food, and curriculum
materials. However, GSA has issued other written and verbal guidance that is inconsistent with
the licensing agreement. The purchases found in our analysis appear to exceed the agency’s
authority under the terms of the Tribal Amendment.

RECOMMENDATIONS

We recommend PBS:

        1.    Establish a well-defined description of authorized “services” and “classroom
              furnishings” that may be procured by GSA for the development of child care centers.
        2.    Ensure the well-defined description of authorized “services” and “classroom
              furnishings” is included in the Special Conditions to the Licensing Agreement for all


20
     Special Conditions to the Licensing Agreement (8/8/2011), Terms and Conditions of Occupancy at § (4)(E).


                                                                       6
JE15-002
        child care providers in GSA-managed space; as well as in any other GSA operating,
        design, development, and website content guidance.
   3.   Provide updated training to Child Care Division purchase card holders on the
        procurement of authorized services and classroom furnishings.
   4.   Require the Child Care Division to enforce its inventory policies, and also conduct
        regular and comprehensive physical inventory inspections of all child care centers to
        ensure inventories of GSA furnished items are accurate.




                                                    7
JE15-002
APPENDIX A
OBJECTIVES, SCOPE, AND METHODOLOGY

The Office of Forensic Auditing, Evaluation, and Analysis performed an evaluation of GSA
issued guidance for the development of child care centers operating independently in GSA-
managed space. The evaluation objectives also included a review of government purchase card
transactions by the GSA Office of Child Care. The fieldwork was performed from December
2013 through June 2014. Field work included site visits to seven NCR child care centers
overseen by GSA, and the GSA NCR Office of Child Care.

In order to accomplish the objectives, we:
    • Reviewed laws, policies, procedures, and guidance for the oversight of child care centers
       in GSA-managed space, such as:
            o Trible Amendment, codified at 40 U.S.C. § 590;
            o GSA Order CFO 4200.1A, Use of the GSA Purchase Card, August 17, 2009;
            o PBS Office of Child Care guides, and;
            o GSA Revocable License for Non-Federal Use of Real Property (GSA Form
               1582), and Special Conditions to the Licensing Agreement.
    • Reviewed 1,012 government purchase card transactions, totaling $1,257,105, by the GSA
       Office of Child Care, encompassing all 11 GSA regions, for the period October 2012
       through September 2013.
            o Analyzed supporting documentation for questionable purchase card transactions.
    • Compared various GSA Form 1582s, and their accompanying Special Conditions to the
       Licensing Agreement, issued by the GSA Office of Child Care for 27 child care centers
       in NCR.
    • Interviewed the GSA PBS Director, Child Care Division.
    • Interviewed the directors of seven independent child care centers overseen by GSA in
       NCR.
    • Inspected GSA purchased items on-site in the seven child care centers.
    • Evaluated GSA prepared inventory lists for the seven child care centers.

The evaluation was conducted in accordance with Quality Standards for Inspection and
Evaluation developed by the Council of the Inspectors General on Integrity and Efficiency. In
accordance with those standards, we planned and performed the evaluation to collect sufficient,
relevant evidence to provide a reasonable basis for our findings, conclusions, and
recommendations.




                                                     8
JE15-002
APPENDIX B
Management Comments




                      9
JE15-002
           10
JE15-002
